Important Terms and Conditions
Visa® Platinum Credit Card

Effective
March 17th , 2020

Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

APRs for Balance Transfers

8.90% - 15.65% APR*

This APR will vary with the market based on the Wall Street Journal’s Highest
Published Prime.

8.90% - 15.65% APR*

This APR will vary with the market based on the Wall Street Journal’s Highest
Published Prime.

APRs for Cash Advances

8.90% - 15.65% APR*

This APR will vary with the market based on the Wall Street Journal’s Highest
Published Prime.

Penalty APR and When it Applies
Minimum Interest Charge
How to Avoid Paying Interest on
Purchases
Credit Card Tips from the Consumer
Financial Protection Bureau

None
None
Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.
To learn more about factors to consider when applying for or using a credit
card, visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Set-up and Maintenance Fees
Annual Fee
Transaction Fees
• Balance Transfer
• Cash Advance
• Foreign Transaction
Penalty Fees
• Late Payment
• Over-the-Credit Limit
• Returned Payment

None
None
None
None
Up to $25
None
Up to $25

How We Calculate Your Balance: We use a method called “average daily balance (including new purchases)”.
See cardholder agreement for complete details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your account
agreement.
*Your

standard APR may vary and is based on Prime Rate. Your rate is determined by adding a margin to the Prime Rate. The
Prime Rate Index used to determine your APR is the rate published in The Wall Street Journal quarterly (January, April, July and
October) and changes are effective as the first day of your next billing cycle. Current rate as of March 17th, 2020.
See cardholder agreement for complete details.

TruStoneFinancial.org | 763.544.1517 | 800.862.1998

